<html>
<title> - A REVIEW OF THE NETWORKING AND INFORMATION TECHNOLOGY RESEARCH AND DEVELOPMENT (NITRD) PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                    A REVIEW OF THE NETWORKING AND 
                    INFORMATION TECHNOLOGY RESEARCH
                    AND DEVELOPMENT (NITRD) PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 28, 2015

                               __________

                           Serial No. 114-46

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 97-765PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
     
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
MICHAEL T. MCCAUL, Texas             ELIZABETH H. ESTY, Connecticut
RANDY HULTGREN, Illinois             KATHERINE M. CLARK, Massachusetts
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
BRUCE WESTERMAN, Arkansas            SUZANNE BONAMICI, Oregon
DAN NEWHOUSE, Washington             ERIC SWALWELL, California
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana
LAMAR S. SMITH, Texas

                            C O N T E N T S

                            October 28, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    13

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    13
    Written Statement............................................    15

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    20

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    23
    Written Statement............................................    24

                               Witnesses:

Dr. Keith Marzullo, Director, National Coordination Office, The 
  Networking and Information Technology Research and Development 
  Program
    Oral Statement...............................................    26
    Written Statement............................................    29

Dr. Gregory D. Hager, Mandell Bellmore Professor, Department of 
  Computer Science, Johns Hopkins University; Co-Chair, NITRD 
  Working Group, The President's Council of Advisors on Science 
  and Technology
    Oral Statement...............................................    41
    Written Statement............................................    44

Dr. Edward Seidel, Director, National Center for Supercomputing 
  Applications, University of Illinois at Urbana-Champaign
    Oral Statement...............................................    54
    Written Statement............................................    56
Discussion.......................................................    65

             Appendix I: Answers to Post-Hearing Questions

Dr. Keith Marzullo, Director, National Coordination Office, The 
  Networking and Information Technology Research and Development 
  Program........................................................    78

Dr. Gregory D. Hager, Mandell Bellmore Professor, Department of 
  Computer Science, Johns Hopkins University; Co-Chair, NITRD 
  Working Group, The President's Council of Advisors on Science 
  and Technology.................................................   102

Dr. Edward Seidel, Director, National Center for Supercomputing 
  Applications, University of Illinois at Urbana-Champaign.......   116

            Appendix II: Additional Material for the Record

Statement submitted by Dr. Kenneth Ball, Dean, Volgenau School of 
  Engineering, George Mason University...........................   132


                       A REVIEW OF THE NETWORKING



                       AND INFORMATION TECHNOLOGY



                RESEARCH AND DEVELOPMENT (NITRD) PROGRAM

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2015

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairwoman Comstock. The Subcommittee on Research and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing entitled ``A Review of the 
Networking and Information Technology Research and Development 
(NITRD) Program.'' I now recognize myself for five minutes for 
an opening statement.
     I want to welcome everyone here today. The topic of this 
morning's hearing, ``A Review of the Networking and Information 
Technology Research and Development Program'', is important to 
our national security, global competitiveness, and 
technological innovation. This hearing will provide us with an 
updated overview of the program, and it will discuss the recent 
President's Council of Advisors on Science and Technology 
report, also known as the PCAST report, on the NITRD Program 
published in August of 2015.
    The NITRD Program was originally authorized in 1991 in the 
High Performance Computing Act. It provides the primary 
mechanism by which the federal government coordinates this 
nation's almost $4 billion of research and development on 
advanced information technologies in computing, networking, and 
software. Agencies who participate in the program include DHS, 
NASA, NIH, NIST, EPA, and the Department of Energy.
    Information technology is all around us in our day-to-day 
lives: on our smartphones, in our cars, and in our kitchens. It 
improves our way of life, even in ways that are not always as 
visible to us. As noted in the PCAST report, ``information 
technology empowers scientific inquiry, space and Earth 
exploration, teaching and learning, consumer buying and 
selling, informed decision-making, national security, 
transportation, and advanced manufacturing.''
    R&D in information technology provides a greater 
understanding of how to protect essential systems and networks 
that support fundamental sectors of our economy, from emergency 
communications and power grids to air-traffic control networks 
and national defense systems. This kind of R&D works to prevent 
or minimize disruptions to critical information infrastructure, 
to protect public and private services, to detect and respond 
to threats while mitigating the severity of and assisting in 
the recovery from those threats in an effort to support a more 
stable and secure nation.
    As technology rapidly advances, the need for research and 
development continues to evolve. NITRD works to prevent 
duplicative and overlapping R&D efforts, thereby enabling more 
efficient use of government resources and taxpayer dollars.
    Executive Order 13539 assigned the President's Council of 
Advisors on Science and Technology, or PCAST, to periodically 
review the NITRD Program. PCAST's most recent assessment, which 
was published this past August, includes a number of 
recommendations. Those recommendations focus on eight specific 
R&D areas including, but not limited to: cybersecurity, IT and 
health, big data and data-intensive computing, and foundational 
computing research.
    Considering the significant increase in global 
interconnectedness enabled by the internet, and with it, 
increased cybersecurity attacks, I was glad to see that the 
PCAST report included recommendations of how to improve the 
foundations of our cybersecurity.For example, one 
recommendation included in the report calls on the National 
Science Foundation to sponsor broad foundational research on 
methods to facilitate end-to-end construction of trustworthy 
systems, particularly for emerging application domains, and on 
ways to anticipate and defend against attacks.
    I look forward to today's hearing, and I hope we are able 
to learn more about the current status of the NITRD Program and 
how we can continue improving the program. I am also looking 
forward to learning how industry is engaged in this program. As 
noted in the PCAST report, ``today's advances rest on a strong 
base of research and development created over many years of 
government and private investment. Because of these 
investments, the United States has a vibrant academia-industry-
government ecosystem to support research and innovation in IT 
and to bring the results into practical use.''
    It is clear that focusing our investments on information 
technology research and development is important to our nation 
for a variety of reasons, including economic prosperity, 
national security, competitiveness, and quality of life.
    [The prepared statement of Chairwoman Comstock follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairwoman Comstock. And now I thank all witnesses for 
being here, and I will turn over the microphone and recognize 
my Ranking Member, the gentleman from Illinois, Mr. Lipinski, 
for his opening statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock. Thank you and 
Chairman Smith for holding this hearing.
    I am certainly pleased that we're once again planning to 
take up reauthorization legislation for the Networking and 
Information Technology R&D Program known as NITRD. The House, 
through this committee, has successfully passed a bipartisan 
reauthorization of the program in each of the past three 
Congresses, and each time the Senate has failed to follow suit. 
If we are going to move a bill to the President's desk, each of 
us in this room will need to work harder on the necessary 
outreach to gather support. It's been too long since the 
original High-Performance Computing Act of 1991 has been 
updated with the current state of science and technology in the 
field, as well as the current operational and management needs 
of the program.
    Networking and information technology is changing more 
rapidly than any of us could have dreamed in 1991. Mosaic, the 
World Wide Web browser that first made the internet user-
friendly, was created at the National Center for Supercomputing 
Applications at the University Of Illinois in 1993 under a 
project funded thanks in large part to the HPC Act. Netscape 
founder Marc Andreessen, who was a leader of the Illinois team 
before launching his company, was quoted as saying, ``if it had 
been left to private industry, it wouldn't have happened, at 
least not until years later.'' Dr. Andreessen's statement is as 
relevant today as ever. Without question, the 1991 Act set the 
stage for a coordinated federal R&D strategy that has 
underpinned the U.S. leadership in NIT for the past 25 years.
    One reason, I believe, that we are having trouble getting 
an update through the Senate is that the private sector has not 
weighed in on the importance of NITRD. I understand that in the 
process of planning this hearing there was some difficulty 
identifying experts in industry at sufficiently high level with 
knowledge of the NITRD Program. Even the experts that were 
consulted had a hard time coming up with more names to reach 
out to. Given that federal investments in stet have 
applications across all sectors of our economy and at the 
ground level, NITRD involves many public-private partnerships, 
I find this troubling that we have not been able to get the 
private sector engaged here.
    The NITRD Program is a $4 billion investment covering every 
aspect of networking and information technology R&D, in 
addition to the computing infrastructure required to support 
R&D in every field of science and engineering. Four billion 
dollars is a large sum by any measure. However, NITRD covers so 
many areas of R&D, as the Chairwoman noted, and includes so 
much expensive but essential infrastructure, I fear we may be 
under-investing in many critical areas such as cybersecurity.
    I want to thank the witnesses for submitting detailed 
written testimony, and I will highlight just a few topics that 
I hope we can discuss this morning. In his testimony, Dr. 
Seidel, the current Director of NCSA, discusses the need for 
more coherence and coordination around computing research 
infrastructure. When we talk about computing research 
infrastructure, we mean not just high-performance computing 
facilities such as Blue Waters, but also big data 
infrastructure, networking testbeds, observation systems, and 
more. I'd like to understand better how infrastructure is 
planned, coordinated, and categorized under the NITRD Program, 
and how the new National Strategic Computing Initiative fits 
in.
    On the topic of education and workforce, we have heard from 
countless experts that our IT workforce pipeline is not keeping 
up with the demand. When it comes to education and training, 
the federal role may be small compared to the state and private 
sector's. However, PCAST made some specific recommendations for 
federal agencies that we may be able to take up in the NITRD 
legislation, so I hope we have the opportunity to discuss those 
recommendations further.
    I look forward to hearing from this morning's expert panel. 
And with that, I yield back.
    [The prepared statement of Mr. Lipinski follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairwoman Comstock. Thank you, Mr. Lipinski.
    I now recognize the Chairman of the full Committee, Mr. 
Smith.
    Chairman Smith. Thank you, Madam Chair. And let me say that 
I appreciate both your and the Ranking Member's thoughtful 
comments today.
    Madam Chair, the Networking and Information Technology 
Research and Development program that we review today, 
otherwise known as NITRD, oversees federal investment in 
fundamental research areas such as supercomputing, 
cybersecurity, big data, and cyber-physical systems.
    These research priorities help spur technologies that 
protect our country and grow our economy. For example, a 
cybersecurity attack is one of the greatest security challenges 
that America faces today. It threatens all of our federal 
agencies and even our private computer systems. This is just 
one area of federal R&D that the NITRD Program addresses.
    In the digital age, threats to our country's computer 
networking systems constantly evolve. We must effectively 
coordinate R&D efforts in order to protect and improve cyber 
and data security nationwide. Better network security promotes 
U.S. competitiveness, enhances national security, and creates 
high-tech jobs.
    In fact, the most recent President's Council of Advisors on 
Science and Technology report predicts that more than half of 
all new science, technology, engineering, and mathematics jobs 
will be related to information technology.
    A healthy and viable workforce, literate in all STEM 
subjects including computer science, is critical to American 
industries. Today, a variety of jobs in industries from banking 
to engineering to medicine require a familiarity with computer 
science. According to the Bureau of Labor Statistics, computing 
and mathematics will be one of the top ten fastest-growing 
major occupational groups from 2010 to 2020, with a growth rate 
of four percent annually compared to one percent for all other 
industries.
    Encouraging innovation and technological advancements is a 
priority of the Science Committee and is important to high-tech 
communities across our country, including those in my district.
    The NITRD program focuses on research and development of 
new technologies that create more high-tech jobs in STEM 
fields. Technological innovation is what drives America's 
economy and success. Since the invention of the world's first 
supercomputer 50 years ago, the United States has held a 
competitive advantage in the field of supercomputing.
    In fact, in Austin, Texas, we have seen great achievements 
in supercomputing. The Stampede supercomputer at the Texas 
Advanced Computing Center at the University of Texas in Austin 
is the number one open-access supercomputer in the country. 
Stampede will be used by more than 1,000 scientists from the 
United States and around the world to solve problems that 
affect our daily lives. This is a tremendous accomplishment not 
only for the innovators at the University of Texas in Austin 
but also for all Americans.
    But to maintain this competitive advantage, we must 
continue to support the fundamental research and development 
that encourages innovation, particularly the creation and 
design of supercomputers and the applications those computers 
support.
    It has been two years since this Committee last reviewed 
the NITRD Program and passed our Committee's bill to 
reauthorize the program. The Advanced--the Advancing America's 
Networking and Information Technology Research and Development 
Act of 2013 provided for the coordinated R&D efforts necessary 
to improve cyber and data security nationwide. Our legislation 
also authorized the participating agencies to support large-
scale, long-term, interdisciplinary research. Unfortunately, 
that legislation stalled in the Senate.
    I want to thank our witnesses today for testifying on the 
NITRD program and appreciate their testimony on the current 
state of the program, recommendations for how to improve the 
program, and future R&D priorities.
    And I will yield back. Thank you.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
   
    
    Chairwoman Comstock. Thank you, Mr. Smith.
    I now recognize the Ranking Member of the Full Committee 
for a statement, Ms. Johnson.
    Ms. Johnson. Thank you very much. I want to thank you, 
Chairwoman Comstock, for holding this important hearing.
    The Science, Space, and Technology Committee played a 
central role in the development of the High-Performance 
Computing Act of 1991, the bill that set the stage for 25 years 
of scientific and technological progress under the Networking 
and Information Technology Research and Development, or NITRD.
    Advances in networking and information technology are a key 
driver of our economy, our national security, and our well-
being. NITRD contributes to increased productivity in existing 
industries and opens the door for information of new ones. 
We've all heard how Google grew out of a basic research project 
funded by the National Science Foundation. NITRD protects our 
brave men and women in the military by improving intelligence 
gathering and sharing and providing them with more effective 
and safer equipment. NITRD has improved healthcare and saved 
countless lives by contributing to advanced diagnostic and 
surgical tools, distance medicine, and improved medical 
research.
    NIT is truly pervasive in our society. Even those of us who 
lived most of our lives before the advent of wireless 
technology don't know how we would live today without the 
devices we carry around in our pockets.
    In their 2015 review of the NITRD Program, the President's 
Council of Advisors on Science and Technology, PCAST, expressed 
concern that researchers today face difficulty getting funded 
for riskier, more speculative long-term investigations. 
According to the PCAST report, funding pressures are pushing 
scientists to choose more short-term problem-solving research. 
I worry deeply about the impact of that and declining budgets 
across our science and technology enterprise. I hope that any 
budget deal being worked out now and in the future will allow 
for increased investments in all fields of science and 
engineering. That was just one of many recommendations from 
PCAST and other experts.
    Today's hearing is an important opportunity for committee 
members to hear from experts about key issues in NITRD 
reauthorization. Our committee has tried several times to 
update and reauthorize NITRD legislation so that it continues 
to push the boundaries of information technology, science and 
technology, and maximizes opportunities for coordination, 
collaboration, and strategic planning among the many NITRD 
member agencies.
    I look forward to working with my colleagues on both sides 
of the aisle to develop a good bill and move it through the 
House. Perhaps we will have more success this time around in 
the Senate.
    And I want to thank the excellent panel for being here 
today, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    Chairwoman Comstock. Thank you, Ms. Johnson.
    Now, let me introduce our witnesses. Our first witness 
today is Dr. Keith Marzullo. Dr. Marzullo currently serves as 
the Director of the Federal Networking and Information 
Technology Research and Development National Coordination 
Office. He also serves as the Co-Chair of NITRD Subcommittee of 
the National Science and Technology Council Committee on 
Technology, where he oversees the operations and activities of 
the NITRD program.
    Dr. Marzullo earned his bachelor's degree in physics at 
Occidental College, his master's degree in applied physics at 
Stanford University, and received his Ph.D. in electrical 
engineering from Stanford University, where he developed the 
Xerox Research Internet Clock Synchronization protocol, one of 
the first practical fault-tolerant protocols for keeping widely 
distributed clocks synchronized with each other. Wow.
    Dr. Gregory Hager is the Mandell Bellmore Professor of 
Computer Science at Johns Hopkins University. He joined the 
Department of Computer Science at Johns Hopkins in 1999 and has 
served as the Deputy Director of the NSF Engineering Research 
Center for Surgical Systems and Technology, and as Chair of 
Computer Science from 2010 to 2015.
     Dr. Hager earned his bachelor's degree in mathematics and 
computer science at Luther College, and his master's degree and 
Ph.D. in computer science at the University of Pennsylvania.
    Dr. Edward Seidel, our third and final witness, is the 
Director of the National Center for Supercomputing 
Applications. In addition to leading the National Center for 
Supercomputing Applications, he is a founder Professor in the 
University of Illinois Department of Physics and a Professor in 
the Department of Astronomy.
    Dr. Seidel earned his bachelor's in mathematics and physics 
at the College of William and Mary, his master's degree in 
physics at the University of Pennsylvania, and his doctorate in 
relativistic astrophysics at Yale University.
    I now recognize Dr. Marzullo for five minutes to present 
his testimony.

                TESTIMONY OF DR. KEITH MARZULLO,

            DIRECTOR, NATIONAL COORDINATION OFFICE,

           THE NETWORKING AND INFORMATION TECHNOLOGY

                RESEARCH AND DEVELOPMENT PROGRAM

    Dr. Marzullo. Thank you and good morning. I would like to 
express my appreciation to Chairwoman Comstock, Ranking Member 
Lipinski, Chair Smith, and Ranking Member Johnson, and the 
whole committee for this opportunity to come before you today 
to discuss the Networking and Information Technology Research 
and Development Program, the National Coordination Office, and 
this year's review of the NITRD Program by the President's 
Council of Advisors on Science and Technology. I will use the 
corresponding acronyms--NITRD, NCO, and PCAST--throughout the 
rest of my comments in the interest of brevity.
    The NITRD Program provides for the coordination of research 
and development in networking and information technology across 
21 federal agencies and many other partners, which collectively 
represent the federal government's primary investments in 
research and development for IT-related technologies. The NCO 
supports coordination activities of the NITRD Program.
    In my oral comments today, I would like to talk a bit about 
current and future research directions. NITRD currently focuses 
on several areas, including big data; cloud computing; 
cybersecurity; Internet of Things; health IT; high-end 
computing; software-defined networking; and the social, 
economic, and workforce implications of IT and IT workforce 
development.
    My written testimony gives several examples of recent 
accomplishments by NITRD groups, including strategic plans, 
interagency solicitations, and joint workshops, and how they 
promoted R&D in their related research areas.
    Looking forward, the recommendations of PCAST identified a 
key set of R&D areas that with sustained support from Congress 
and across agencies will lead to significant progress in 
addressing national priorities. Some of the suggested R&D areas 
like cybersecurity have been important for some time and still 
critically need cross-agency coordination.
    There are three areas that PCAST identified, though, that 
I'd like to call out: first, big data and data-intensive 
computing. We recognized some time ago that scientific 
breakthroughs are increasingly powered by advanced computing 
capabilities that help researchers manipulate and explore 
massive data sets. Breakthroughs are now possible in education; 
city and community services; healthcare; and disaster 
preparedness prevention, response, and recovery.
    However, big data raises important issues with respect to 
storage and curation, as well as to privacy. A continued cross-
agency focus will accelerate our progress, advancing both the 
foundations and applications of data science and engineering.
    Second: high-capacity computing for discovery, security, 
and commerce. Here, I would like to note the National Strategic 
Computing Initiative established by executive order earlier 
this year. Previous investments in high-performance computing 
have contributed substantially to national economic prosperity 
and have rapidly accelerated scientific discovery, but the path 
for continued progress is steep. We need fundamentally new 
approaches.
    Delivering exascale computing presents hard technical 
challenges and further progress will require us to overcome the 
physical limitations imposed by current semiconductor 
technology. Addressing these challenges requires a whole-
government approach in which NITRD is positioned to play a key 
coordinating role.
    Third: cyber human systems. The role of people in 
networking and information technology and vice versa are both 
increasingly important. Robotics is moving from closed 
environments like factory floors to open environments like 
people's homes. The devices that communicate with each other in 
the Internet of Things are increasingly doing so as part of 
systems that fundamentally involve people, such as in 
automobile traffic management, environmental monitoring, and 
aging-in-place support. Cross-agency collaboration is required 
to make progress in computing-enabled human interaction, 
communication, and augmentation that can enhance human 
capabilities and improve learning, education, and training in 
all fields.
    Let me close by noting that for decades the investments of 
the federal government in basic IT research have helped the 
nation make good progress on grand-challenge problems and 
address national priorities. Basic IT research has led to 
significant innovations, to new startups and small businesses, 
to birth of entirely new industries, and sometimes to 
disruptive technological change. The NITRD Program is 
completely involved in this exciting and rapidly changing 
research and innovation ecosystem through the program's 
mechanisms that facilitate interagency coordination and 
collaboration on federally funded research and development 
activities.
    I thank you for your interest in the NITRD Program and the 
opportunity to appear before you today. The NITRD community 
looks forward to working with you to further the value of 
interagency cooperation in Networking and Information 
Technology Research and Development.
    [The prepared statement of Dr. Marzullo follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Comstock. Thank you.
    And I now recognize Dr. Hager for five minutes to present 
his testimony.

               TESTIMONY OF DR. GREGORY D. HAGER,

                  MANDELL BELLMORE PROFESSOR,

                DEPARTMENT OF COMPUTER SCIENCE,

                   JOHNS HOPKINS UNIVERSITY;

                 CO-CHAIR, NITRD WORKING GROUP,

              THE PRESIDENT'S COUNCIL OF ADVISORS

                   ON SCIENCE AND TECHNOLOGY

    Dr. Hager. Thank you and good morning. I would like to 
express my appreciation as well to Chairwoman Comstock, Ranking 
Member Lipinski, Chairman Smith, and Ranking Member Johnson, 
and the other members of the Subcommittee on Research and 
Technology for this opportunity to present my perspectives on 
the NITRD Program.
    As you are aware, by executive order the PCAST is charged 
with periodically reviewing the NITRD Program and has delivered 
reports previously in 2010 and 2013. To perform this most 
recent review, PCAST convened a working group consisting of 
seven experts from academia and industry. I co-chaired this 
group, together with Dr. Susan Graham, a PCAST member and 
professor emerita at the University of California Berkeley. I 
am pleased to be able to share with you a summary of some of 
the findings and recommendations of the report. My written 
testimony has a more complete overview of the report.
    In the report, we note that when the High Performance 
Computing Act was introduced in 1991, much of computing 
research, particularly at the high end, focused on advances in 
computing systems themselves. As already noted in other opening 
remarks, today's picture is far broader. Computing empowers 
scientific inquiry, exploration, teaching and learning, and 
consumer buying and selling. Nearly every device, be it a car, 
a kitchen appliance, equipment on the manufacturing floor, or a 
child's toy is enhanced by information technology.
    As already noted the National Bureau of Labor Statistics 
projects that more than half of all new jobs in STEM will be 
related to information technology.
    These incredible advances in computing are reshaping the 
field of computing itself, creating an expanding research 
agenda that is increasingly driven by interactions among 
computing devices, people, and the physical world they inhabit, 
and which it is also increasingly important to many national 
priorities.
    In preparing this most recent review, the PCAST NITRD 
working group consulted previous NITRD reviews, interviewed 
experts in a variety of areas, and ultimately chose eight key 
areas upon which to present findings and recommendations. Two 
national priorities, cybersecurity and health are highlighted. 
With respect to cybersecurity, the report calls out the need to 
support continued research on the development of secure 
systems, research on the management of imperfect systems and 
human fallibility, and mechanisms to translate new solutions 
into practice.
    With respect to health, the report notes a growing 
community of technology researchers working in this space and 
highlights the need to empower this community through open 
interfaces, standards, and mechanisms for accelerating the 
deployment of solutions into practice.
    The report highlights two areas: cyber human systems and 
privacy where there are strong cross-disciplinary ties with the 
social and behavioral sciences and with the policy community. 
Cyber human systems are computational systems that support 
communication and coordination of individuals, groups, and 
organizations.
    As noted by Dr. Marzullo, advances in understanding of 
cyber human systems, will rely on fundamental research to 
understand the interplay of people and computing in 
coordination with mission-focused research and important 
societal needs such as education and health.
    The report finds that privacy is increasingly threatened by 
the growth of online activity. Advances in privacy research 
will require deep collaboration among computer scientists, 
legal scholars, and behavioral and social scientists to inform 
both the design of computing systems and the drafting of 
policies and regulations.
    Two areas where past investments are beginning to pay off 
for NITRD: IT-based interaction with the physical world and 
data-intensive computing. Recommendations for both of these 
areas call out the need for additional basic research but also 
highlight the need for coordination with mission agencies to 
advance applications of this work.
    Finally, two areas in the technology base are reviewed. 
First, high-capability computing continues to be essential to 
our nation. The National Strategic Computing Initiative is an 
opportunity to implement a sustained program of long-term 
fundamental research on architectures, algorithms and software 
to ensure continued advances for both data-intensive and 
computing-intensive applications.
    And last but most importantly, many of the advances we 
enjoy today grew from decades of foundational research. The 
report emphasizes that continued support for foundational 
research is essential to provide the basis for future 
innovations and disruptive advances in the use of IT.
    Noting the anticipated growth in IT-related jobs, the 
report discusses the educational needs of the nation and 
recommends that the NITRD Subcommittee work in partnership with 
NSF and the Department of Education to develop educational and 
training opportunities in IT at all levels.
    Finally, the report reviews the current organization of the 
NITRD Program and makes several recommendations to ensure the 
NITRD Program keeps pace with the continuing evolution of the 
computing field.
    I will close by reiterating the findings our working 
committee affirmed that the NITRD Program continues to play an 
important role in guiding effective investments in computing 
research. I would like to again thank the Committee for this 
opportunity to discuss the findings of the NITRD working group, 
and I stand ready to help the Committee to advance its efforts 
in advancing computing research.
    [The prepared statement of Dr. Hager follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairwoman Comstock. Thank you, Dr. Hager.
    I now recognize Dr. Seidel.

           TESTIMONY OF DR. EDWARD SEIDEL, DIRECTOR,

        NATIONAL CENTER FOR SUPERCOMPUTING APPLICATIONS,

           UNIVERSITY OF ILLINOIS AT URBANA-CHAMPAIGN

    Dr. Seidel. Thank you. Good morning, Chairwoman Comstock, 
Ranking Member Lipinski, Mand embers of the Subcommittee, thank 
you for the chance to participate in this important discussion.
    I am Professor Ed Seidel, the Director of NCSA at the 
University of Illinois. I previously served at the National 
Science Foundation as the Assistant Director for the 
Directorate for Mathematical and Physical Sciences and also as 
the Director of the Office of Cyber Infrastructure. In those 
capacities I also co-chaired subcommittees under OSTP's 
Committees on Science and on Technology. I'm also very familiar 
with the importance to the nation of networking information 
technology, or NIT, across all areas of research and with the 
National Strategic Computing Initiative, or NSCI, and its 
importance in maintaining American competitiveness and research 
and in economic development. Indeed, I can think of no other 
single initiative that has as much potential to support and 
maintain U.S. leadership in research and innovation.
    I would first like to outline some critical trends in 
science, engineering and industrial research that must guide 
federal investments in NIT. First, as more complex problems in 
science and society are addressed, R&D is increasingly 
collaborative and interdisciplinary. How do drugs interact with 
a virus? How can jet engines be made more efficient? Answers 
will require integration of expertise from many areas of 
science and engineering and from big data and from multiple 
instruments and big computing. All are needed, and such 
problems do not respect disciplinary, nor agency boundaries.
    Second, complex problems are increasingly computational and 
data-intensive requiring integration of large-scale computing 
facilities and data from many observation systems and 
instruments. Without this, many problems are beyond the reach 
of the nation's current capabilities.
    Activities at the center that I direct, NCSA, beautifully 
illustrate these trends. Funded by many agencies, NCSA leads 
the two largest single computing investments from the NSF 
accounting for over half-a-billion dollars. The Blue Waters 
supercomputer, the most powerful in the academic world, 
provides unique science capabilities to over a thousand 
researchers across the nation. And I have a book here just hot 
off the presses that has dozens and dozens of projects that are 
being done on machines like Blue Waters and others that can't 
be done in any other way.
    The XSEDE project also provides advanced digital services 
for resources at many other national computing and data sites. 
Together, these highly oversubscribed facilities support over a 
billion dollars worth of externally funded research projects, 
only about half of which come from the National Science 
Foundation with the remainder coming from NIH, DOE, NASA, and 
others.
    NCSA is also building data services for the Large Synoptic 
Survey Telescope funded jointly by the NSF and the DOE at close 
to a billion dollars. This revolutionary telescope will produce 
data at rates never before seen in the history of astronomy, 
and NCSA will play the primary role in hosting, processing, and 
serving data to the nation's science communities.
    Such 21st century investments--in this case, a telescope--
are huge data-generators and they need huge computers. They are 
merely peripherals to the computing infrastructure needed for 
science. Costing upwards of a billion dollars each, such 
instruments are more silicon than they are steel, and they need 
to be a part of the overall ecosystem of national information 
technology investments.
    Underlying all of this in this era of big data and 
computing, in order to maintain U.S. competitiveness in 
research and innovation, the NSCI is desperately needed. A 
whole-of-government effort is required with deep coordination 
across the spectrum of agencies, their communities, and digital 
methodologies. The NSCI rightly singled out NSF in a key 
integrative role in this broad ecosystem.
    In August, PCAST made recommendations regarding NITRD and 
NCO that I agree with, and I am confident that the current 
leadership will do an outstanding job acting on these 
recommendations, enabling them to play a major role in 
coordinating federal NIT investments.
    Beyond the PCAST recommendations, however, I would urge the 
Committee to consider three points: First, highly compute- and 
data-intensive instruments should be a part of the overall 
portfolio of NIT coordination. Each such instrument is 
typically more expensive than the largest single computing 
facilities with computing, networking, and data investments 
comparable to those of the largest HPC centers, yet they are 
often not coordinated with the rest of the system and they need 
to be.
    Two, being science-driven, coordinating federal investment 
in NIT should involve organizations beyond NITRD, including 
groups under the Committee on Science. These science 
communities cut across all disciplines, they are funded by many 
agencies, and they are driving the integration of computing, 
data, and networking, and they need to be deeply involved.
    And finally, new funding vehicles for large NIT investments 
that are designed to be more coordinated may also be needed. 
For example, NSF's MREFC vehicle for funding large facilities 
and DOE's CD process are used successfully to fund major 
instruments. One should examine whether such vehicles could be 
adapted for multiagency coordination.
    Thank you for giving me the chance to testify. I hope that 
I can help realize the great vision of research and innovation 
vital to the nation that I think we all share.
    [The prepared statement of Dr. Seidel follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairwoman Comstock. Thank you so much. Thank all of you. 
It is fascinating work that you all do, so I appreciate the 
opportunity to discuss it this morning with you.
    And without objection, we have the statement of Dr. Kenneth 
Ball from George Mason University, which will also be included 
in the record.
    [The prepared statement of Dr. Ball appears in Appendix II]
    Chairwoman Comstock. So I now recognize myself for five 
minutes for questions, and we'll proceed with our others here.
    I want to ask all of you to tell us how we can have more 
interface between academia, industry, and government. What is 
the ecosystem here and how do we sort of get more bang for our 
buck? It's all being utilized in a more efficient way but, how 
are we getting all of these things on a faster track. Do you 
have any thoughts on how we might better get industry 
engagement?
    Dr. Marzullo. I'll start. I do want to note that in NITRD 
we actually have a fairly broad reach into industry, and we do 
it in a few ways. One is through workshops. For example, in the 
wireless area, wireless spectrum research and development, 
they've been running a series of workshops, seven of them, 
which have been looking at all the issues dealing with the 
access of this limited resource, this spectrum sharing. And 
these workshops are attended by people from industry, 
academics, and government people. So in these workshops, for 
example, we've got people from T-Mobile, Microsoft, Agilent, 
Vanu, Comsearch, Qualcomm. So we have a reach into that.
    Similarly, in our Cyber Physical Systems Senior Steering 
Group, one of the efforts being run by NIST, the Global City 
Teams Challenge, has been forming partnerships of industry, 
academics, and communities to look at cyber-physical smart 
cities, smart communities. And through the CPS Senior Steering 
Group, because of the coordination we do, NSF jumped in to help 
participate in those efforts. And so that's another path in.
    We also have a couple of groups, the Joint Engineering 
Team, which looks at information sharing among federal agencies 
in scientific networking. We have another one called MAGIC, 
which is our Middleware and Grid, and these also involve 
industry. They come and talk with us. Microsoft, Verizon, and 
Cisco have been members.
    So I think we are reaching out. We can do more but I think 
we are reaching out.
    Chairwoman Comstock. All right. Thank you. And, Dr. Hager?
    Dr. Hager. So I was thinking about, you know, the different 
perspectives on industry, academic, government interaction, and 
perhaps I can give you a couple of different views of that. So, 
as you know the IT industry is tremendously impetuous almost in 
its development of new technologies. And so the topics and the 
directions change quickly.
    That being said, there's a tremendous interaction at the 
grassroots level among academic researchers and industry. And 
that's really through students moving back and forth with 
industry, as well as some collaborative projects with industry. 
You have to understand many companies do not have industrial 
research labs anymore in the IT industry, and so it really is 
very much a grassroots level interaction.
    I will, however, highlight--picking up on Dr. Marzullo's 
response that several venues where we do bring together 
government, industry, and academic researchers. So I also chair 
the Computing Community Consortium. And in the--that consortium 
we hold visioning workshops where we talk about new topics in 
computing, and we always have representation from industry, 
government, and academic researchers. So there is a 
conversation and there is a connection even if it may not be 
immediately visible from the highest levels.
    Chairwoman Comstock. Okay.
    Dr. Seidel. Yes, thanks for the question.
    I can give you a couple of different answers. So from my 
present post as the Director of NCSA, I can say we have many, 
many deep interactions with companies. We have a private sector 
program that has over two dozen companies that actually pay to 
be members of our consortium, and we work very deeply with 
them. Some of them--Caterpillar has been there for over 30 
years. And when the original NSF supercomputing program started 
in 1985-86 in that period, the NCSA leadership at the time took 
out a full page ad in the Wall Street Journal and said we are 
open for business. And that led to a lot of industrial 
relationships with the University of Illinois and has actually 
led to an entire industrial park that is now just south of 
campus. And those relationships continue.
    In the present day when the National Strategic Computing 
Initiative was announced, I was invited to the Eisenhower 
Executive Office Building for a little discussion on that, and 
I would say over half of the participants in the room were from 
industry. And some of the most passionate members of that panel 
talked about the need, for example, to have large-scale 
computing investments at the federal level so that they would 
be able to do things that they can't do otherwise.
    For example, jet engine development, a mere one percent 
increase in the efficiency, which would require supercomputing 
at the level of, say, 10 to 100 times what we have now in order 
to really do that sort of work well, would allow tens of 
billions of dollars in savings in the airline industry for fuel 
costs, for example. So there are lots of examples where we work 
together with industry.
    Chairwoman Comstock. Thank you. And I think any time and 
any place you can help us assist with telling that story, so 
people really understand the multiplier effect of all the 
research that is going on and how it's integrated into 
everything that we see. So thank you very much.
    And I yield five minutes to Mr. Lipinski.
    Mr. Lipinski. Thank you. I just want to follow up on a 
couple things there. And, Dr. Seidel, I've been to U of I and 
seen what you've done there by having these industries come in. 
And it's great to see and it's great to hear all these examples 
of how industry has really benefitted. So as we move forward, I 
think we'll have to have further discussions on how we can make 
sure that we get them involved in making sure that this NITRD 
works as well as it can.
    But I wanted to ask Dr. Marzullo, you had talked about 
this--mentioned this at least in your answer to the 
Chairwoman's question, but I wanted to get a little bit--talk a 
little bit more about the smart cities and connected 
communities, multiagency framework. Can you tell us more about 
this and how are the private sector and city governments 
themselves involved in this?
    Dr. Marzullo. Mr. Lipinski, thank you for the question. The 
Global Cities Team Challenge was an effort that was started by 
NIST, and it happened at about the same time that the National 
Science Foundation was looking at ways to frame their efforts 
in cyber-physical systems. Cyber-physical systems are these 
complex systems that are--involve the physical world, people, 
and computation. And a natural partnership grew out between the 
two. The NIST has been working on a framework for cyber-
physical systems and NSF has been looking at the foundational 
aspects.
    So there was a partnership that sprung up being led by 
NIST, Chris Greer, to build these kinds of projects that tied 
together communities like Montgomery County, researchers, and 
companies small and large in developing innovative approaches 
to smart city problems. And then the National Science 
Foundation used its own ability to reach into its own 
researchers to help motivate them into moving into this.
    NSF thought this was a great idea because this also helped 
form a bridge between the research that was going on to 
industry in terms of applications.
    Mr. Lipinski. Very good. I want to turn in my remaining 
time to computing infrastructure. We know that big data and 
data science broadly speaking is becoming a larger part of 
scientific research with every passing year. But at the same 
time, research infrastructure in this space, including HPCs 
like Blue Waters but also testbeds and storage for large 
datasets is increasingly expensive. So how do we weigh the 
benefits of improving our computing infrastructure against the 
other research priorities for the purposes of the NITRD 
Program? So whoever wants to--would like to jump in here. Dr. 
Seidel?
    Dr. Seidel. Yes, thank you. There are--it's clear that 
investments in computing impact all areas of science and 
engineering. So the Blue Waters facility is supporting areas 
from every single directorate at NSF. It's very interesting to 
note that even in the social sciences, which you wouldn't think 
of as being highly computational, they're using as much------
    Mr. Lipinski. Oh, I understand they're highly 
computational.
    Dr. Seidel. They're using--I know you--that's correct. But 
many of them are using--that community--that directorate is 
using as much computing time as the Math and Physical Sciences 
Directorate did just ten years ago. So it's in every single 
area. And so the point is that investments in these areas can 
really impact all other areas, and they're fundamental to them. 
They can't do their work without them. So I think that's one of 
the issues to be thinking about when you're thinking about how 
to distribute budgets.
    Mr. Lipinski. Thank you. Dr. Hager?
    Dr. Hager. So I guess I would echo Dr. Seidel's remarks. As 
we see the field evolving, we're seeing that data is playing a 
larger and larger role across many, many areas, and it's 
clearly going to continue along those lines. I would note that, 
you know, other nations--for example, Japan--has a much more 
advanced capability broadly in data-intensive computing and 
high-performance computing than the United States currently 
does. And clearly, they see a value in investing in that area.
    So it is an important area. I agree the investments have to 
be weighed against the impact that they are making in these 
other areas, but they are the infrastructure upon which many, 
many areas build.
    Mr. Lipinski. Dr. Marzullo, do you have anything to add?
    Dr. Marzullo. I'll just add a brief note here in my time 
that the groups within NITRD often talk about infrastructure 
investments, and they find ways to try to help increase the 
sharing of them. We have a wonderful taxonomy of wireless 
testbeds, for example, available on our website.
    Mr. Lipinski. Good. Thank you. I yield back.
    Chairwoman Comstock. Thank you.
    And I now recognize Mr. LaHood for five minutes.
    Mr. LaHood. Thank you, Madam Chair. And I want to thank the 
witnesses for your testimony today and for your commitment and 
dedication to what you do.
    Dr. Seidel, we appreciate you being here, and thank you for 
the work you do at University of Illinois with our program 
there. And I wanted to just follow up a little bit on your 
reference to the private sector partner program. You referenced 
Caterpillar and some of the other companies that you work with.
    In terms of kind of the real-world effects of that in terms 
of product design, competitiveness, and the iForge project, can 
you talk a little bit more about that? And I guess as a follow-
up, do you think we're doing enough to highlight what we do in 
the private sector in making people aware of that, and is there 
room to grow there?
    Dr. Seidel. So thank you for the question.
    Just a little bit of background, as I mentioned, we have 
many private sector partners that are focused on using 
computing to advance their business, and we have a specifically 
dedicated computing system called iForge that is just for 
industrial use. So they really use that facility in the way 
that they want to. So we operate it for them. They're members 
of our program, and so they not only use the facility but they 
use the staff and the expertise, just as important or more 
important than the facility because computers come and go in 
fairly short timescales. It's the incredible scientific and 
computing expert staff that we maintain. And all the centers, 
I'm sure, would say the same thing. That's the most important 
aspect.
    So they are--and part of the teams that work with industry 
and industry then provides problems for us to work on, whether 
it's scaling their codes or doing things like engine design or, 
you know, pharmaceutical design and so on, we help them scale 
their codes up to larger and larger processer accounts. And so 
if they want to graduate, say, from the iForge machine, which 
is much smaller, to a Blue Waters machine, which allows them to 
do things that they couldn't do anywhere else, including in 
their own homegrown computing facilities where they just don't 
have facilities like that--the Blue Waters machine is a $200 
million facility--then we help them make that scaling--make 
that jump.
    Another thing that we're doing, though, we're seeing 
increasingly that there is the concern about big data, and 
they're very, very focused on big data. And so there's a new 
NSF program called the Big Data Hub, which I'm the PI for the 
so-called Midwest Big Data Hub--it'll be announced next week--
and it is about private-public partnerships. And we have many, 
many companies, state organizations, cities, as well as 
academic organizations all working together on this.
    Mr. LaHood. Thank you.
    Dr. Hager, I wanted to--you referenced earlier, I guess, in 
the last set of questions about Japan. In terms of U.S. 
leadership and where we are with competitiveness in the world 
when it comes to supercomputing, can you talk a little bit 
about how we rank worldwide and where we're at in terms of our 
competitiveness and looking to the future a little bit and what 
we need to do to stay where we're at or to improve?
    Dr. Hager. Thank you for the question.
    So as I'm sure you know, we no longer nationally have the 
fastest supercomputer in the world. That happens to be in China 
right now. And as I said, there are other nations investing in 
greater computing capacity. So I think it is an important area 
for the field broadly to invest in not just because of what it 
enables in science but also what it enables in technology 
research. So many of the advances that we see in the broader 
computing field often start in the high-performance computing 
field and trickle down.
    The other opportunity I'd like to highlight is that, as we 
develop more and more advanced machines, often the challenge is 
to actually achieve the highest possible performance on those 
machines. And there are some very interesting and very 
fundamental computing research problems simply to take 
advantage of the resources we have, as well as building greater 
resources.
    Mr. LaHood. And I guess is there--in terms of being--you 
know, continuing on the path we're on or moving up to compete 
with China, I mean is that strictly a resource issue or is 
that--are there other factors that relate to that?
    Dr. Hager. Well, certainly, you know, resources are 
important. We can't succeed without applying substantial 
resources.
    The technical issues involved in developing the next 
generation of computing, however, are really quite amazing when 
you start to think about, for example, what it would take to 
build a so-called exascale computing engine. There are 
fundamental physical limitations that we're running up against. 
There are architectural limitations that we run up against. 
It's not clear that the current technologies that we have--or 
in fact it is clear the current technologies we have simply 
won't scale. And so it's a matter of resources but resources 
applied broadly to achieve breakthroughs in several areas in 
order to advance computing to the next level.
    Mr. LaHood. And, last question, do you think we're prepared 
to go to that next level currently?
    Dr. Hager. Certainly, we have I think nationally the 
capability to go to that level, the people-resources capability 
to go to that level. I think it's a matter of investment, 
focus, and strategic planning to achieve that next set of 
performance levels.
    Mr. LaHood. Thank you.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Hultgren for five minutes.
    Mr. Hultgren. Thanks, Madam Chair.
    Thank you all for being here. This is an important subject 
and really appreciate the work that you're all doing. I think 
the NITRD Program is important and gives federal agencies the 
ability to better work together in multidisciplinary fashion to 
tackle the big scientific and technological challenges we are 
beginning to face.
    Dr. Seidel, it's very good to see you again. It was so good 
to be at your amazing, literally amazing facility back in 
April. I still talk about that often, and I've visited quite a 
few different wonderful sites in Illinois. We do have a proud 
depth of scientific ecosystem in Illinois. But one of the most 
impressive was being there at Blue Waters. So I just want to 
thank you for your work and encourage my colleagues whenever 
you get the chance to come to Champaign-Urbana to be able to 
see a phenomenal facility that is absolutely having a big 
impact. So thank you for your work.
    In your written testimony, Dr. Seidel, you mentioned that 
NCSA is deeply engaged in numerous big data projects. I also 
appreciate your discussing the LSST project. I think it's 
important for my colleagues to know that this was the number-
one on-the-ground priority in the last Planetary Science 
Decadal Survey. So the work you are doing primarily with NSF 
funding really enables all of our other scientific fields.
    With our computational capabilities being what they are 
today, how does the government need to account for what many 
are calling more of a data-management problem than a computing 
problem, and would you agree with that assessment?
    Dr. Seidel. Thank you very much for all those remarks.
    There are major challenges in data management. That's for 
sure. I would call it an expanding universe that is growing 
beyond the traditional HPC investments and so on. So it's a 
much bigger set of problems, and we're still grappling with 
them. There are many aspects of this from what you do with all 
the data. So whether it's data that are collected from 
telescopes or from accelerators or from light sources and so 
on, or the output from supercomputers--you have to figure out 
what to do with all of that--the data are scientifically 
valuable, and they also have economic value as well.
    And in fact, the entire Materials Genome Initiative that 
was announced 4 or five years ago--when I was at the NSF, I 
played a role in that--was a lot about making data computing, 
theory, and experiment all integral to an approach to materials 
that was really an economic development initiative because it 
was aimed at industrial competitiveness and making new 
materials at a much cheaper cost in half the time. And it was 
all largely seen as data being the integrator. And so creating 
services that make data that are collected from scientific 
activities, making them available to other researchers helps to 
ensure the reproducibility of the science, it helps others to 
take advantage of it more quickly, and it makes it directly 
available to industry so that they can take it up more quickly 
and then begin to make things. And that was what the Materials 
Genome was about.
    So there are many, many issues, and I'd say the data issues 
are growing rapidly, just as are the computing ones. We can't 
forget about them. They go together.
    Mr. Hultgren. For years, industry and governments alike 
have used FLOPS as the benchmark standard for our fastest 
computers. I think this is a certainly valuable measure, which 
should not be abandoned, but what other ways do we need to be 
looking at our computational abilities to make sure that we 
have the most capable machines? Dr. Seidel?
    Dr. Seidel. We have a lot of work to do, and every aspect, 
as we heard on the technologies themselves, on the expertise of 
the scientific communities to take advantage of these machines 
that are getting harder to process or to program. If you have a 
million processors--the Blue Waters computer has close to a 
million processors, think about how you would program such a 
machine to do a problem in astrophysics or in biology. So we 
have to invest a lot in the training of the next generation of 
researchers. That's really, really critical.
    And in fact, I had the privilege to meet with about 60 
students from the XSEDE project who were at a conference in St. 
Louis this summer, I queried them and they all said that they 
were not learning what they needed in their university 
curriculum; they were learning it in these workshops that we 
were holding. So there's a lot that needs to be done in every 
aspect of this.
    Mr. Hultgren. You also discussed the Strategic Computing 
Initiative, and I've been in touch with Dr. Blazey, you know, 
at NIU who was encouraging this kind of initiative when he was 
OSTP. Earlier this year and in the previous Congress the House 
passed my legislation, the American Supercomputing Leadership 
Act, which would create a dedicated exascale program and ensure 
a more open facility to research the research community.
    I agree with the three leadership agencies in the 
initiative, and I think it's important to stress to my 
colleagues the national defense needs, mainly in workforce 
development, that are developed first outside of DOD with 
students and researchers at NSF and DOE.
    Quickly--and I'm just about out of time--but how should we 
improve our interagency working groups at NITRD to better serve 
our research capabilities and connect the core capabilities 
certain agencies have? And also if--maybe we can follow up in 
writing, too, if you have further comment on PCAST review. That 
may be helpful as well.
    Mr. Seidel. I would just make a quick answer to that. I 
think the recommendations actually were excellent. I think they 
need to be acted on, and I'm very confident that they will be. 
I'd like to see a broader set of activities, though, that also 
really deeply engages the science communities. The NITRD 
Program does focus naturally on the technologies and so--but 
the science communities and the engineering communities are the 
ones driving this so they need to be engaged.
    Mr. Hultgren. Great. Thank you. Thank you, Madam Chair. I 
yield back.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Palmer for five minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    Dr. Hager, in the past, NITRD Program has had problems with 
the way in which participating agencies categorized their NITRD 
budgets. Is that still a problem?
    Dr. Hager. So thank you for the question.
    Certainly, in the past there have been issues related to 
the question of what goes into the program component areas, the 
PCAs, which are the budget categories by which one measures the 
investments in the NITRD Program. I think that part of those 
issues had to do with the fact that the PCAs historically were 
quite outdated, as I have already noted. They're over 20 years 
old. They in many cases no longer naturally fit the activities 
within the computing research field. And that's in fact why we 
spent a great deal of effort in our working group attempting to 
understand first how one would go about changing the PCAs and 
also suggested a process by which they could be continually 
renewed so that there is a natural mapping between the PCAs and 
areas of interest within computing research.
    To give one simple example, we have the National Robotics 
Initiative but we don't have a natural way to measure 
investment in robotics. So where would robotics go in the 
existing PCAs?
    Mr. Palmer. Do you--does NITRD, which is a--is the main 
source of federally funded information technology. Is there 
anything being done to ensure that there's no duplicate 
research that's being done in the agencies? Would you like to 
respond to that, Dr. Marzullo?
    Dr. Marzullo. Thank you for the question. The way NITRD 
works is we have several groups where we have representatives 
from the agencies discuss their portfolios and review what is 
being funded. The details of this are published every year in 
our supplement, and much of the work in there is not only to 
avoid duplication but to find ways we can work with each other, 
which is I think even more important. I'd like to say the 
secret sauce of NITRD is collaboration.
    Mr. Palmer. That's right. Thanks.
    Dr. Hager, your testimony mentions the tension between 
purchasing the long-term foundational research and short-term 
problem-solving research. How is NITRD approaching that 
problem?
    Dr. Hager. So thank you for the question.
    I think it's important to understand that NITRD represents 
an extremely broad collection of agencies, including NSF, which 
of course is the center of foundational research and computing 
and extending through mission agencies, including DARPA, NIST, 
Department of Education, and so forth.
    So NITRD in many ways is really, I believe a convening 
ground where there is the opportunity to have exactly the 
discussions of the balance between basic research and more 
applied mission-focused research. And my understanding, through 
discussions with NITRD, is that there are a variety of 
conversations that take place among those agencies to achieve 
that balance.
    I will say the remarks were also directed to the fact that 
as we were saying, computing research funding is sometimes 
challenging to come by, so one is, as a young faculty member, 
very tempted to focus on concrete and short-term problems 
simply because one can get funding from the broadest set of 
agencies in that case. And that is the sort of thing that will 
advance your career, to show those immediate results.
    Mr. Palmer. And this question can apply to all of you, but 
in terms of the short-term problem-solving research, is that 
something that the private sector could play a greater role in 
and leave the longer-term stuff to the federal government?
    Dr. Hager. So one of the interesting evolutions in 
computing research that I alluded to earlier is that relatively 
few companies now have industrial research groups within them. 
So Microsoft is a perfect example of a company that still does 
have a research group, and it's possible to use that group as a 
buffer between short-term and long-term research.
    I think at this point, because of where the industry is, it 
really is becoming more incumbent on academia, we're finding, 
to really have that ecosystem of both short-term and long-term 
research. I think we would welcome the opportunity to better 
support some of the shorter-term research through other 
mechanisms if they were available, but at this point we don't 
see those mechanisms. And so you're seeing the community really 
fill that gap that has been created by the lack of industrial 
research groups.
    Mr. Palmer. Well, this is fascinating and necessary work, 
and I want to thank you for being here today. And one of the 
more polite groups of witnesses we've had. Thank you.
    Chairwoman Comstock. I now recognize Mr. Abraham for five 
minutes.
    Mr. Abraham. Thank you, Madam Chair, and I thank the 
doctors for being here, too.
    Dr. Marzullo, is there any way the National Coordination 
Office itself can be improved, enhanced to support NITRD?
    Dr. Marzullo. First, I'm going to give a shout-out to the 
National Coordination Office crew. Some of them are sitting 
behind me and they're a fantastic group of people, I must say.
    I think the improvements we've been looking at are better 
ways to manage the NITRD Program, so how we can have better 
group structure, how we can get information more quickly.
    So--and I actually support all of the recommendations that 
PCAST made. I think that was a wonderful set of groups, and we 
are acting on them.
    But the National Coordination Office itself, they're a 
great group of people. I couldn't want a better staff.
    Mr. Abraham. All right. Dr. Hager, how often is the NITRD 
Program reviewed, and how often would you want it--to review 
it?
    Dr. Hager. Well, thank you for the question.
    So the current practice is to review every two years, and 
as you see, we did 2010, 2013, 2015, so we're almost managing 
every two years. I would say two years, I believe, is too 
often. It's very difficult to really perform a meaningful 
review just two years after the previous review happened. 
There's really not a lot of time to react.
    Mr. Abraham. What would you say would be the ideal number?
    Dr. Hager. So I would say in the three- to five-year time 
frame would be------
    Mr. Abraham. Okay.
    Dr. Hager. --a more meaningful time to do a NITRD review.
    Mr. Abraham. Now, in your report you made several 
recommendations to NITRD. The stakeholders themselves, how are 
they receiving those? Are they a positive response, pushback? 
What's their take on the recs you made?
    Dr. Hager. So I have to say that, personally, I have only 
heard positive responses from the individuals with whom I've 
interacted. And I'd like to compliment Dr. Marzullo. I know 
that he has already within his office been reacting to many of 
the recommendations and, you know, he may have additional 
comments in terms of how those changes have been filtering 
through the NITRD Program.
    Mr. Abraham. Okay. And this is for any or all of you. I 
know the DOE is not part of the NITRD right now. Would that be 
a good thing, the Department of Education?
    Dr. Marzullo. Department of Education is a participating 
agency, so we have had representatives come to talk about STEM, 
and we always welcome them more.
    Mr. Abraham. But they're not a--just a steadfast member? 
They do bring people in, though?
    Dr. Marzullo. They do bring people in. They do work with 
us, yes.
    Mr. Abraham. And you think that's good enough? I mean 
you're getting enough input from that aspect to do some good 
things with them?
    Dr. Marzullo. I would always welcome more contact from----
--
    Mr. Abraham. Education.
    Dr. Marzullo. I'm sorry, education. They're a strong 
agency.
    Mr. Abraham. Okay. All right. Thank you, Madam Chair. I 
yield back.
    Chairwoman Comstock. Thank you. Actually, I will take the 
prerogative of one more question picking up on talking about 
the workshops that were often more helpful for the students 
than the classrooms. I was wondering if all of you might 
address a little bit about how we need to change education for 
dealing with the rapid changes that are going on in this whole 
industry. I think of a friend of mine, his son who's a 
brilliant student, went to Stanford, and then came to him after 
the first semester and said, you know, Dad, I'm dropping out of 
school. You know, as the Dad, you're kind of like oh, no, and 
he said, no, it's good. Like I'm going to work because if I 
don't go out and work in this field, I'm going to get behind by 
being in the classroom. So he was taking his classes while he's 
working and doing this because he was worried kind of about 
what you said.
    So how can we change that education framework and dynamic 
and really have a--I mean he's making money now while he's 
taking his classes, too. And I've seen in my district we have a 
cybersecurity high school program. So how can we push this down 
to high school, too, where these kids are getting trained to go 
into the cybersecurity field out of high school and they are 
being recruited out of high school into really good-paying 
jobs, and then having those employers pay for them to get 
college credits as they move forward? So they basically have a 
free college degree waiting for them when they get out of this 
program. So how we can really modernize our education system to 
deal with this quickly adapting industry?
    Dr. Seidel. I'll make a couple quick comments on that and 
then let the others comment. When I was meeting with those 
students, I was really astounded to hear that they're basically 
still being trained in 17th century methods in physics, which 
is learning calculus, but not in 21st century, even 20th 
century methods in the classroom. So this is largely due to the 
fact that professors are teaching the time-honored tradition 
and so on. And so they need a little bit of a kick, I think, 
often. And so I think agencies can help them move forward 
faster by incentivizing changes and providing programs to tell 
them what they expect from their research activities and so on. 
So that's one way this can be done.
    My son also was recruited out of college and decided to 
stay in. It was largely because I think he thought the longer-
term prospects for him would be good there, but he did really 
think about the same exact thing.
    Dr. Hager. So let me just first just say on a personal 
level I understand completely how challenging it can be to 
advance teaching in the classroom. In my area, computer vision, 
there--I often come into a lecture and say ten years ago we 
didn't even know how to begin to solve this problem. We now 
consider it a solved problem. We're actually building on top of 
it. So the field really does evolve quite rapidly.
    One of the challenges I'd really like to highlight that the 
stress that the education--computing education is under these 
days. In my department, the number of majors has between 
tripled and quadrupled over the last few years, which creates 
enormous challenges in the classroom. I think the notion of 
looking for opportunities to bring experiential learning into 
the classroom. And I would actually highlight I think this is a 
place where industry could play a strong role. If we had 
representatives from industry coming into the classroom and 
teaching, it would both address the capacity needs within our 
department, as well as providing, I think, a very sorely needed 
perspective on where the computing industry is today.
    Chairwoman Comstock. That's a great idea, yes.
    Dr. Marzullo. Part of the problem you've already mentioned 
is the rapidly changing field of information technology and 
trying to even get the teachers up to speed on what's going on, 
get the material into their hands. Sometimes we seem to think 
that MOOCs are going to solve everything, and they will to a 
small degree, but training the teachers, getting information, 
developing material is a priority.
    I also think there are some very good programs out there 
for cybersecurity, the Scholarship for Service program, the 
Cyber Challenge Program of DHS. More will be done in that. I 
personally am interested to see when such programs will start 
springing up in the area of data analytics. That is clearly the 
next wave, and there's going to be a huge demand for this, and 
I think we're unprepared for that wave.
    Chairwoman Comstock. Well, thank you. I really appreciate 
all of our--actually, Mr. Lipinski, did you want--okay.
    Well, thank you for your expertise and for your enthusiasm 
for your work. And I'd like to thank all of your colleagues 
that came with you today. This is an exciting area that we 
certainly always have to get caught up on. If it's hard for 
these brilliant students to keep up on it, you can imagine how 
challenging it is for all of us.
    So we appreciate your thoughts and ideas, and any time you 
can give us more information on how we might better assist in 
what you're doing, it would be most appreciated. So thank you 
for the opportunity to visit with you today.
    And the Committee is now adjourned.
    [Whereupon, at 11:21 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Keith Marzullo

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Gregory D. Hager

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. Edward Seidel

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




                Statement submitted by Dr. Kenneth Ball
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               


                                 <all>
</pre></body></html>
